TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Actions Have Been Taken to Address
                   Deficiencies in the Questionable Refund
                 Program; However, Many Concerns Remain,
                        With Millions of Dollars at Risk



                                           May 31, 2007

                              Reference Number: 2007-10-076




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 2(a) = Law Enforcement Criteria
 2(c) = Law Enforcement Tolerance(s)
 2(e) = Law Enforcement Procedure(s)
 2(f) = Risk Circumvention of Agency Regulation or Statute (whichever is applicable)
 7 = Predecisional Staff Recommendations or Suggestions to Agency Decision Makers

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                     May 31, 2007


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION

 FROM:                            Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – Actions Have Been Taken to Address
                                  Deficiencies in the Questionable Refund Program; However,
                                  Many Concerns Remain, With Millions of Dollars at Risk
                                  (Audit # 200610003)

 This report presents our review of the Questionable Refund Program.1 The overall objective of
 this review was to determine the effectiveness of the Internal Revenue Service’s (IRS)
 procedures for detecting fraudulent and potentially fraudulent refund income tax returns.
 We began this review as a follow-on audit to our recent limited-scope review regarding the
 effectiveness of the IRS’ processes to detect fraudulent prisoner refund returns and to our prior
 reviews regarding the effectiveness of the controls placed on taxpayer accounts identified as
 fraudulent or potentially fraudulent.2 However, due to the release of the National Taxpayer
 Advocate’s (Advocate) 2005 Annual Report to Congress and the revelation that the Electronic
 Fraud Detection System would not be operational during Processing Year 2006, we added
 several tests to determine how the IRS had implemented a limited fraud detection program for
 that year and how it plans to change processing procedures for Processing Year 2007 and
 beyond.

 Impact on the Taxpayer
 The IRS estimates fraudulent refund claims exceed $500 million a year. The Criminal
 Investigation (CI) function Questionable Refund Program, established to identify and prevent the
 issuance of fraudulent refunds, received harsh criticism from the Advocate in January 2006 as


 1
     Appendix VI includes a glossary of terms used in this report.
 2
     For more information, see Appendix V, reports 6, 2, and 5.
                         Actions Have Been Taken to Address Deficiencies
                       in the Questionable Refund Program; However, Many
                         Concerns Remain, With Millions of Dollars at Risk


deficiencies and credits are the result of fraudulent returns; (5) consult with the Executive
Steering Committee and consider lowering the tolerances for sending cases to the Examination
function; (6) reconsider the decision to exclude certain returns from the Center screening
process; and (7) reemphasize the requirement to maintain documentation to adequately support
fraud determinations.

Response

IRS management agreed with Recommendations 2, 3, and 7 and advised us of plans to review
2007 data to obtain more current time periods for completing verification; to collaborate with the
Department of Justice and the Executive Office of United States Attorneys on referral criteria, to
ensure a balance between workload and effective tax administration; and, through a task force, to
consider revising review procedures, including the adherence to maintaining documentation.
Management partially agreed with Recommendation 1 to freeze the subsequent year’s returns of
those accounts identified in the current year as fraudulent, stating that, to work the additional
inventory that would result from implementation of the recommendation, they would have to
consider other enforcement priorities. Management neither agreed nor disagreed with
Recommendations 4, 5, and 6 and, as a result, was noncommittal on the corrective actions.
Management plans to work with the IRS Offices of Legislative Affairs and Chief Counsel but
believes legislative proposals are the responsibility of the Assistant Secretary for Tax Policy;
stated that, while they would like to address all cases of potential noncompliance, enforcement
resources are limited; and plans to conduct an analysis to determine if the current selection
process (use of the Dependent Database Program, a prerefund Earned Income Tax Credit
program) for certain returns should be modified. Management’s complete response to the draft
report is included as Appendix VII.


Office of Audit Comment
For the one partially agreed to recommendation and the three recommendations that management
neither agreed nor disagreed with, the IRS proposed different types of actions. For
Recommendation 1, instead of reconsidering placement of a freeze on the subsequent year’s
returns, management stated they would wait for a cross-functional team to evaluate the results of
the 2007 Questionable Refund Program and make recommendations on any adjustments before
the 2008 Filing Season. For Recommendation 4, instead of working with the IRS Office of
Chief Counsel to initiate a legislative proposal, IRS management stated they would work with
relevant parties to discuss initiating a legislative proposal. For Recommendation 5, instead of
considering lowering the tolerance for sending cases to the Examination function, management
stated that criteria will be established each filing season based on business decisions about
competing priorities. Finally, for Recommendation 6, instead of reconsidering the decision to

                                                                                                 4
                         Actions Have Been Taken to Address Deficiencies
                       in the Questionable Refund Program; However, Many
                         Concerns Remain, With Millions of Dollars at Risk


exclude certain returns from the screening process, management stated they used a different
screening process for the 2007 Filing Season and plan to conduct an analysis to determine if the
current selection process should be modified.
While we see these actions as a start, we believe the Executive Steering Committee should
consider the factors in our report and the potentially egregious nature of the questionable refund
fraud identified when comparing the priority of the Questionable Refund Program and its impact
on tax administration with that of other civil programs. Specifically, we believe freezing the
subsequent year’s returns as we recommended is a more efficient and effective means of
identifying repeated fraud, protecting Federal Government revenue, and protecting innocent
taxpayers who are victims of identity theft. In addition, we did not determine if the IRS’ actions
regarding the identity theft indicator would protect innocent taxpayers’ refunds.
We continue to believe the IRS should take a leading role in pursuing a legislative change, while
working with the Assistant Secretary for Tax Policy. A legislative proposal has the potential to
improve tax administration while still protecting taxpayer rights. In addition, implementing the
recommended legislative change would allow the IRS to lower its tolerances, drastically reduce
the number of cases that would need to be referred to the Examination function, and reduce the
number of already limited resources needed to process these cases. Finally, approximately a
month prior to responding to this report, the CI function concluded that not everything was being
identified by the Dependent Database Program. This admission came after we expressed our
concerns about the effectiveness of this Program on several occasions. As a result, IRS
management was already aware the 2007 Filing Season screening process was ineffective for
certain returns, but they did not indicate in their response what changes were needed.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                                   5
                                 Actions Have Been Taken to Address Deficiencies
                               in the Questionable Refund Program; However, Many
                                 Concerns Remain, With Millions of Dollars at Risk




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Growth of the Questionable Refund Program Led to Its Eventual
          Management and Inventory Problems ..........................................................Page 4
          The Internal Revenue Service Revised Procedures to Afford Taxpayers’
          Their Rights ..................................................................................................Page 9
          The Internal Revenue Service Should Reconsider How It Freezes
          Taxpayer Accounts .......................................................................................Page 9
                    Recommendation 1:........................................................Page 14

                    Recommendation 2:........................................................Page 15

          The Internal Revenue Service Needs to Be More Aggressive in the
          Criminal and Civil Pursuit of Fraudulent Refunds .......................................Page 15
                    Recommendations 3 and 4: ..............................................Page 22

                    Recommendation 5:........................................................Page 23

          Changes During Processing Year 2006 Had a Detrimental Impact on
          Identifying Fraudulent Returns and Will Have an Undeterminable Effect
          on Processing Year 2007 ..............................................................................Page 24
                    Recommendation 6:........................................................Page 27

          Actions Taken and Decisions Made by the Fraud Detection Centers Were
          Generally Proper but Not Always Timely or Supported ..............................Page 28
                    Recommendation 7:........................................................Page 32


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 33
          Appendix II – Major Contributors to This Report ........................................Page 37
                     Actions Have Been Taken to Address Deficiencies
                   in the Questionable Refund Program; However, Many
                     Concerns Remain, With Millions of Dollars at Risk



Appendix III – Report Distribution List .......................................................Page 38
Appendix IV – Outcome Measures...............................................................Page 39
Appendix V – Related Treasury Inspector General for
Tax Administration Audit Reports................................................................Page 41
Appendix VI – Glossary of Terms................................................................Page 42
Appendix VII – Management’s Response to the Draft Report.....................Page 44
         Actions Have Been Taken to Address Deficiencies
       in the Questionable Refund Program; However, Many
         Concerns Remain, With Millions of Dollars at Risk




                 Abbreviations

CI         Criminal Investigation
EFDS       Electronic Fraud Detection System
EITC       Earned Income Tax Credit
IRS        Internal Revenue Service
QRP        Questionable Refund Program
                                Actions Have Been Taken to Address Deficiencies
                              in the Questionable Refund Program; However, Many
                                Concerns Remain, With Millions of Dollars at Risk




                                               Background

The mission of the Internal Revenue Service (IRS) Criminal Investigation function (hereinafter
referred to as CI function or function) is to serve the American public by investigating potential
criminal violations of the Internal Revenue Code and related financial crimes in a manner that
fosters confidence in the tax system and compliance with the law. The CI function’s
Questionable Refund Program (QRP)1 is a nationwide, multifunctional program whose mission is
to detect refund fraud, prevent the issuance of fraudulent refunds, and provide support to the CI
function field offices. During our exit conference, the CI function advised us it had begun to
refer to these refunds as “potentially fraudulent” because an actual fraud determination could not
be made without the taxpayer’s explanation. In this report, we retained the CI function’s prior
terminology of “fraudulent” because the scope of our case review involved evaluating prior
years’ procedures, and there was inconsistent use of the terms “fraudulent” and “potentially
fraudulent” during 2006.
Responsibility for coordinating the QRP resides with the CI function’s 10 Fraud Detection
Centers (hereinafter referred to as the Centers), which are located at each of the 10 IRS
campuses. In their early years, the Centers primarily used manual procedures to identify
fraudulent returns by looking for similar characteristics. This process gradually evolved into an
automated identification of fraudulent returns, with the Electronic Fraud Detection System
(EFDS) being prototyped in 1 Center in 1994 and implemented in all 10 Centers in 1996.
Beginning in 2002, the Centers introduced data mining techniques to more effectively identify
fraudulent returns.
When a Center identifies a potentially fraudulent return, it contacts the employer or third party to
verify wage information on the return. If the verification process is not completed within a
certain time period, the Center places a temporary freeze on the account to prevent the refund
from being issued. When a Center verifies fraud, it should replace the temporary freeze with a
permanent freeze and take the appropriate action to either reverse the frozen refund or pursue
recovery of the fraudulent refund if it was issued.
As detection techniques and data mining evolved and improved, the Centers became more
proficient and efficient in identifying fraudulent returns and stopping fraudulent refunds. At the
same time, during the late 1990s and into early 2000, taxpayers became bolder in filing returns
claiming fraudulent refunds.




1
    Appendix VI includes a glossary of terms used in this report.
                                                                                             Page 1
                           Actions Have Been Taken to Address Deficiencies
                         in the Questionable Refund Program; However, Many
                           Concerns Remain, With Millions of Dollars at Risk



The CI function reported that, as of December 1, 2005, the Centers had identified
132,945 fraudulent refund returns claiming $515.5 million in refunds during Processing
Year 2005. Compared to the prior year, this was a 12.6 percent increase in the number of
fraudulent returns and a 16.7 percent increase in the amount of fraudulent refunds identified. In
contrast, through September 29, 2006, the CI function had identified only 44,788 fraudulent
returns claiming $232.3 million in refunds during Processing Year 2006. The dramatic decrease
occurred because the redesigned EFDS web-based application (Web EFDS) was not
implemented due to a lack of adequate oversight and monitoring of the project, as we had
previously reported.2
We began this review as a follow-on audit to our 2005 limited-scope review regarding the
effectiveness of the IRS’ processes to detect fraudulent prisoner refund returns and to our prior
reviews regarding the effectiveness of Center controls placed on taxpayer accounts identified as
fraudulent or potentially fraudulent.3 However, due to the release of the National Taxpayer
Advocate’s (hereinafter referred to as the Advocate) 2005 Annual Report to Congress and the
revelation that the EFDS would not be
operational during Processing Year 2006, we
added several tests to determine how the IRS had         The IRS estimates fraudulent refund
                                                          claims exceed $500 million a year.
implemented a limited fraud detection program          Congress has held hearings urging the
during Processing Year 2006 and how it plans to       IRS to devote additional resources to and
change processing procedures for Processing               improve its detection of fraudulent
Year 2007 and beyond. In addition, we are               refunds, particularly those claimed by
continuing our efforts, through a separate review,         prisoners. At the same time, the
                                                        Advocate reports that actions taken by
to evaluate the validity of the scoring               the Centers adversely affected taxpayers’
methodology used by the CI function to identify                         rights.
potentially fraudulent returns and are compiling
demographic profiles of taxpayers to determine the effectiveness of the IRS’ screening process.4
This review was performed at the Office of Refund Crimes in Washington, D.C., and in the
Atlanta, Georgia; Brookhaven, New York; Fresno, California; and Kansas City, Missouri,
Centers during the period December 2005 through November 2006. In addition, we
telephonically contacted the Andover, Massachusetts; Austin, Texas; Cincinnati, Ohio;
Memphis, Tennessee; Ogden, Utah; and Philadelphia, Pennsylvania, Centers. The audit was
conducted in accordance with Government Auditing Standards, except for the Field Work
Standard for Performance Audits governing sufficient, relevant, and competent evidence.
Although we requested that the Centers send us information directly, there were instances when
the Office of Refund Crimes requested that the Centers provide it with the information to
determine if all documents provided were responsive to our request. We are unaware if there

2
  For more information, see Appendix V, report 6.
3
  For more information, see Appendix V, reports 2 and 5.
4
  Questionable Refund Program Phase II (Audit # 200710024).
                                                                                           Page 2
                        Actions Have Been Taken to Address Deficiencies
                      in the Questionable Refund Program; However, Many
                        Concerns Remain, With Millions of Dollars at Risk



were any instances in which the Office of Refund Crimes eliminated documents sent to it by the
Centers in responding to the audit. Nonetheless, because we could not always examine
documents at the source, we could not independently confirm that all examples of pertinent
documents submitted to the CI function Headquarters office from the field were, in turn,
forwarded to us. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                        Page 3
                                            Actions Have Been Taken to Address Deficiencies
                                          in the Questionable Refund Program; However, Many
                                            Concerns Remain, With Millions of Dollars at Risk



Advocate Service inquiries related to CI function cases increased from 5,587 in Fiscal Year 2002
to 28,639 in Fiscal Year 2005, an increase of 413 percent. In Fiscal Year 2002, refund inquiries
were the twelfth leading cause of a Taxpayer Advocate Service inquiry. They were third in
Fiscal Year 2003 and became the number one cause in Fiscal Year 2004. Figure 2 shows the
volumes of all Taxpayer Advocate Service inquiries and inquiries related to fraudulent refunds.
  Figure 2: Comparison of All Taxpayer Advocate Service Inquiries to Inquiries
                           Related to Refund Fraud

                              250,000   226,707                                                                             20.0%

                                                                196,040                                  197,697




                                                                                                                                    Percentage of Refund
                              200,000
        Number of Inquiries




                                                                                     168,856                       14.5%    15.0%




                                                                                                                                       Fraud Inquiries
                              150,000
                                                                                               9.6%                         10.0%
                              100,000                                     7.7%
                                                                                                                            5.0%
                               50,000        2.5%                                                                  28,639
                                                                          15,118               16,139
                                                  5,587
                                   0                                                                                        0.0%
                                           2002                     2003                  2004                2005
                                                                            Fiscal Year

                                                          Total Taxpayer Advocate Service Inquiries
                                                          CI Function Taxpayer Advocate Service Inquiries
                                                          Percentage of CI Function Inquiries to Total Inquiries

     Source: The Advocate’s 2005 Report.

Figure 3 shows a further comparison of the number of fraudulent refunds identified to the
number of Taxpayer Advocate Service inquiries.




                                                                                                                                                           Page 6
                                    Actions Have Been Taken to Address Deficiencies
                                  in the Questionable Refund Program; However, Many
                                    Concerns Remain, With Millions of Dollars at Risk



                       Figure 3: Comparison of Fraudulent Refunds Identified to
                                 Taxpayer Advocate Service Inquiries

                 140,000                                                                  132,945            25%
                                                                      118,075
                 120,000                                                                            22%




                                                                                                                   % of Taxpayer Advocate Service
                                                                                                             20%
                                                 96,953
                 100,000




                                                                                                                        to Fraudulent Returns
                            81,486                        16%                                                15%
        Volume




                  80,000                                                        14%




                                                                                                                               Inquiries
                  60,000                                                                                     10%
                  40,000             7%                                                          28,639
                                                       15,118               16,139                           5%
                  20,000
                                    5,587
                      0                                                                                      0%
                                  2002               2003                 2004                 2005
                                   Fraudulent Refunds Identified Year
                                   Taxpayer Advocate Service Inquiries
                                   Percent of Taxpayer Advocate Service Inquiries to Fraudulent Returns

        Source: The CI function for fraudulent returns identified and the Advocate’s 2005 Report for Taxpayer
        Advocate Service receipts. Fraudulent refunds are based on the processing year; Taxpayer Advocate Service
        inquiries are based on the fiscal year. While the time periods are different, most refund returns are filed
        before the end of the fiscal year; thus, these numbers provide for a reasonable comparison from year to year.

Further, the volume of potentially fraudulent frozen refund accounts increased 138 percent, while
the amount of refunds frozen increased 180 percent, from 2002 to 2005. Figure 4 shows the
numbers and amounts of tax accounts frozen at the end of these years.
                    Figure 4: Comparison of Fraudulent Frozen Refund Accounts
                      Year Ended                          Accounts Frozen                       Amounts Frozen
                           2002                                 100,205                                    $367,682,083
                           2003                                 169,106                                    $598,568,111
                           2004                                 200,520                                    $836,276,193
                           2005                                 238,466                                   $1,028,606,118
         Source: The CI function for Fiscal Year 2005 and our analysis of the IRS’ frozen refund file for other
         years. The year ended 2002 is the calendar year; the other years are fiscal years.

As mentioned above, in two of five prior audit reports, we had raised concerns about the
CI function’s inaction in timely reviewing and releasing freezes.6 We believe the significant
increase in Taxpayer Advocate Service inquiries is directly related to the volume of frozen


6
    For more information, see Appendix V, reports 1 and 2.
                                                                                                                                          Page 7
                         Actions Have Been Taken to Address Deficiencies
                       in the Questionable Refund Program; However, Many
                         Concerns Remain, With Millions of Dollars at Risk



refunds. These factors, when combined, should have signaled to the IRS there were workload
problems that needed to be addressed within the QRP.

The Advocate and Congressional stakeholder concerns
The Advocate’s Report released in January 2006 brought to light several problems with the
QRP. As a result, Congress expressed concerns about the QRP to the IRS Commissioner and the
Secretary of the Treasury. While all stakeholders acknowledged the value of the QRP in
preventing tax fraud and abuse and promoting compliance among taxpayers, they indicated there
needs to be a balance between protecting taxpayer rights and enforcing the laws. The
Advocate’s Report highlighted several significant problems, such as:
   •   Taxpayers were not notified their returns were frozen as potentially fraudulent.
   •   Procedures in resolving accounts subjected taxpayers to excessive delays.
   •   Future refund returns were frozen until a taxpayer filed a certain number of legitimate
       returns, even though there is little evidence to suggest that a taxpayer is likely to repeat
       refund fraud after the initial attempt.
   •   Identity theft victims’ returns were automatically classified as fraudulent for successive
       years, and their refunds were frozen.
   •   Frozen refunds were not timely reviewed due to insufficient CI function resources.
   •   Other IRS functions, especially the Examination function, did not have resources to
       address refund freezes.
Unfortunately, it took the release of the Advocate’s Report for the IRS to realize that the
CI function could not and should not fix these problems alone. Thus, shortly after the release of
the Report, the IRS Commissioner directed a review of the QRP, to include establishing a
process for notifying taxpayers. An Executive Steering Committee, consisting of members from
the Advocate’s office, the CI function, the Small Business/Self-Employed Division, the Wage
and Investment Division, and the Modernization and Information Technology Services
organization, was formed to establish a process to notify taxpayers that their refunds were being
held and to revise the QRP. We are encouraged by the IRS’ actions to address the concerns
raised by the Advocate; however, we have reservations about some of the changes that have been
implemented. We discuss our concerns throughout this report.




                                                                                              Page 8
                         Actions Have Been Taken to Address Deficiencies
                       in the Questionable Refund Program; However, Many
                         Concerns Remain, With Millions of Dollars at Risk



The Internal Revenue Service Revised Procedures to Afford
Taxpayers’ Their Rights
Previous procedures did not allow a taxpayer with a CI freeze on his or her account to be given
any information about the freeze by any part of the IRS, including the Taxpayer Advocate
Service, until 180 days had elapsed from the date of the taxpayer’s initial contact with the IRS.
Even after expiration of the 180 days, the CI function might have designated a case as a “no
contact” case, which means the IRS, including the Taxpayer Advocate Service, was not
permitted to provide account information to the taxpayer.
Due to the sensitive nature of criminal investigations, the CI function generally did not notify
taxpayers that their refunds were frozen. The function defended its policy by stating the delay in
providing information is needed to avoid tipping off targets of fraud investigations and these are
ongoing investigations in which an individual could be filing multiple returns for refunds
throughout the filing season.
CI function officials conceded that they could do a better job of communicating with taxpayers
whose refunds had been frozen. To that end, the Executive Steering Committee drafted a notice
to advise taxpayers whose refunds had been frozen and provide them with a time period for
contacting the IRS. Taxpayers started to receive these initial notices in February 2006. In
addition, the Committee drafted a second set of notices to use when it was determined a refund is
fraudulent. These notices include an explanation and description of the taxpayer’s rights to
challenge the claim. The IRS issued these notices beginning in May 2006. We are encouraged
by the IRS’ actions to address the Advocate’s concerns regarding notifying taxpayers and its
actions to implement this process so quickly. We will discuss these notices in further detail
when we discuss plans for referring fraudulent refund cases to other IRS functions for resolution.

The Internal Revenue Service Should Reconsider How It Freezes
Taxpayer Accounts
The CI function uses three basic types of freezes during the process of identifying, verifying, and
controlling fraudulent refund returns. The identification process begins when refund returns are
passed through data mining models. Each return receives a score based on certain return
characteristics. The higher the score, the greater the likelihood the refund could be fraudulent.
The Centers select returns that meet predetermined tolerances for further review. There is an
automatic resequencing (delays) in the processing of these returns for 1 week to prevent the
potentially fraudulent refunds from being issued. This also provides the Centers additional time
to determine if the returns are fraudulent.




                                                                                            Page 9
                             Actions Have Been Taken to Address Deficiencies
                           in the Questionable Refund Program; However, Many
                             Concerns Remain, With Millions of Dollars at Risk



Resequencing has minimal impact on taxpayers
According to the CI function, it resequenced about 869,000 refund returns during Processing
Year 2004. Of those, about 96 percent were released after 1 week and the taxpayers received
their refunds timely. In Processing Year 2005, the CI function resequenced almost
526,000 refund returns and released about 92 percent after 1 week.
As part of the CI function’s ongoing efforts to combat refund fraud, the Director, Refund Crimes,
initiated a programming change to delay refunds for 2 weeks, to allow additional time to screen
returns in Processing Year 2006. The CI function plans to have the EFDS operational during
Processing Year 2007 and will continue with its plans to delay by 2 weeks any refund meeting
the data mining tolerance. We believe this processing change will have minimal impact on
taxpayers and is an appropriate balance to allow the Centers time to screen refunds.

Changes in temporary freezes may not give the IRS sufficient time to verify
refunds
The CI function will place a temporary freeze on an account when it cannot complete the
verification process within the time allotted during resequencing or if it identifies a potentially
fraudulent return through other means. This temporary freeze should be removed when wage
and/or withholding verification7 supports the release of the refund. However, in many cases,
these temporary freezes became more permanent in nature because workload and staffing did not
always allow the Centers to make a fraud determination.
According to the CI function, it placed a temporary freeze on about 542,000 accounts during
Processing Year 2004 and about 561,000 accounts during Processing Year 2005.8 However, it
did not notify taxpayers of this or afford them the courtesy of knowing how long their refunds
would be delayed and a right to challenge a claim disallowance if necessary. The Advocate’s
Report acknowledged this created an undue burden on taxpayers whose refunds were legitimate.
As a result, the IRS implemented new procedures in Processing Year 2006 to notify taxpayers
that their refunds have been delayed. In addition, the Centers will have only a certain number of
days for completing the verification of wages, withholding, and/or claims for tax credits instead
of leaving the freeze on the account permanently. If the Centers do not complete the verification
process and make the determination there is fraud during this time, the refund will be
automatically released.




7
  During the verification process, Center staff will contact employers or payers to verify income or withholding
information submitted by taxpayers with their tax returns.
8
  There is no correlation between the number of returns resequenced and the number of returns with a temporary
freeze. Most resequenced returns never have a temporary freeze. Likewise, returns with a temporary freeze that
were identified through other means were not resequenced.
                                                                                                          Page 10
                         Actions Have Been Taken to Address Deficiencies
                       in the Questionable Refund Program; However, Many
                         Concerns Remain, With Millions of Dollars at Risk



When we asked how the Office of Refund Crimes decided on the criteria for automatically
releasing refunds that cannot be verified within a certain number of days, we were told the
criteria were established by a consensus of the Executive Steering Committee and the Advocate.
Office of Refund Crimes staff further advised us they conducted a study using prior years’ data
to assess the length of time between when a return is temporarily frozen and when the Center
makes a fraud determination. This study determined the Centers made a fraud determination on
90 percent of their cases within a certain number of days. Our review of 385 fraudulent refund
returns processed during Processing Year 2004 identified 108 returns that were temporarily
frozen. The Centers made a fraud determination on 90 percent of these returns within the time
period established by the Committee, similar to the Office of Refund Crimes study results.
However, these statistics were based upon work done by the Centers in prior years.
Statistics maintained by the Office of Refund Crimes for Processing Year 2006 show
19,399 fraudulent refund returns were identified for review as a result of prior years’ freezes or
freezing the current year’s accounts of prisoners. Refunds of almost $15.9 million (22.3 percent)
were issued because the returns were not verified before the automatic release was imposed.
Thus, only about 78 percent of the returns for Processing Year 2006 were verified within the
established time, a 13 percent decrease from the verification rate achieved during the prior year.
Office of Refund Crimes personnel advised us they did not analyze this information to revalidate
the time periods for automatically releasing refunds. In light of the new procedures being
implemented in the QRP, we believe the Office of Refund Crimes should revalidate its study
using the most current data, to ensure it has sufficient time to complete the verification process.

Permanent freezes have the biggest impact on taxpayers and may still be
necessary
When the CI function verifies a refund return as fraudulent, it places a CI freeze on the account.
Procedures in effect during Processing Years 2004 and 2005 required the Centers to place the
CI freeze on a taxpayer’s account when a return was verified as fraudulent and to keep the
account frozen until the taxpayer had filed a certain number of legitimate returns in future years.
During Processing Years 2004 and 2005, the Centers placed freezes on 161,855 and
171,531 taxpayer accounts, respectively. The freeze status remained on the taxpayers’ accounts
indefinitely until the Centers took action to resolve the accounts or release the freezes. As a
result, the volume of frozen accounts grew to almost 240,000 by the end of Fiscal Year 2005. In
some cases, refunds were frozen for several years.
The Advocate’s Report highlighted the “automatic” freezing of future years’ refund returns as a
significant problem with the QRP. As a result, the Office of Refund Crimes discontinued
placing a freeze on future years’ refund returns and instead identified certain high-risk categories
as exceptions to this process. This revised procedure concerns us because we believe the future
year freeze is an effective means for protecting revenue, when considered along with the 2006
changes to notify taxpayers and minimize the time refunds are frozen.

                                                                                            Page 11
                           Actions Have Been Taken to Address Deficiencies
                         in the Questionable Refund Program; However, Many
                           Concerns Remain, With Millions of Dollars at Risk



In our opinion, if the CI function properly identifies identity theft freezes, notifies the taxpayers
of the freezes, and timely resolves the freezes, the IRS will be providing a valuable service to the
taxpayer while at the same time protecting Federal Government revenue.
The Office of Refund Crimes staff acknowledged that identity theft is an area it still needs to
address. In addition, the Office of Refund Crimes staff advised us the identity theft program area
will be transferred from the Wage and Investment Division to the Mission Assurance and
Security Services organization.

Recommendations
The Chief, CI, should:
Recommendation 1: In light of the 2006 changes to reduce burden on taxpayers, consult with
other IRS functions and reconsider placing a CI freeze on the subsequent year’s returns of those
accounts identified in the current year as fraudulent, including those returns involving identity
theft.
       Management’s Response: The IRS partially agreed with the recommendation.
       Under the auspices of the QRP Executive Steering Committee, a cross-functional team
       plans to evaluate the results of the 2007 QRP and make recommendations as to whether
       adjustments are necessary before the 2008 Filing Season. The IRS plans to consider the
       Executive Steering Committee’s and our recommendations as well as any tradeoffs that
       would have to be made against other enforcement priorities to work the additional
       inventory that would result from the implementation of this recommendation. The IRS is
       developing an IRS-wide indicator to be used on those accounts on which identity theft
       has been documented. The QRP plans to follow the IRS-wide decisions on identifying
       victims of identity theft.
       Office of Audit Comment: We believe freezing the subsequent year’s returns as we
       recommended is a more efficient and effective means of identifying repeated fraud,
       protecting Federal Government revenue, and protecting innocent taxpayers who are
       victims of identity theft. Freezing these returns for a limited time would be preferable to
       attempting to collect fraudulent refunds that have already been issued. We did not
       determine if the IRS’ actions regarding the identity theft indicator would protect innocent
       taxpayers’ refunds.




                                                                                             Page 14
                               Actions Have Been Taken to Address Deficiencies
                             in the Questionable Refund Program; However, Many
                               Concerns Remain, With Millions of Dollars at Risk



Recommendation 2: Revalidate the optimal time needed to verify wage/withholding
information prior to automatically releasing a refund.
           Management’s Response: The IRS agreed with this recommendation. The Director,
           Refund Crimes, plans to review the 2007 data to obtain more current time periods for
           completing verification and is working to incorporate the use of Department of Health
           and Human Services employment data into the EFDS in this fiscal year. This would
           automate the verification process, reduce the volume of manual verifications made, and
           reduce the time required to verify wage/withholding information. The IRS plans to
           reconsider this change taking into account the time required for verification in this filing
           season, implementation of the Department of Health and Human Services employment
           data, and its commitment to expedite the review of returns so legitimate refunds can be
           released earlier.

The Internal Revenue Service Needs to Be More Aggressive in the
Criminal and Civil Pursuit of Fraudulent Refunds
The CI function has been the primary stakeholder in the QRP, with support from the civil
functions. As mentioned in the Background section of this report, the mission of the Centers is
to identify and detect refund fraud, prevent the issuance of fraudulent refunds, and provide
support to the function’s field offices. However, the process does not end with freezing refunds.
Basically, every fraudulent return identified requires some subsequent action. Schemes need to
be evaluated to determine if they should be referred to a field office for potential criminal
investigation. Fraudulent returns that do not meet the field office referral criteria should be
monitored and accounts adjusted to reverse the fraudulent information. In addition, Center
employees may need to respond to refund or Taxpayer Advocate Service inquiries. Further, if
fraudulent refunds are issued, actions should be taken to pursue recovery of the refunds.

Referrals to CI function field offices
As part of their mission to provide support to the CI function field offices, the Centers analyze
fraudulent returns to identify common return characteristics and patterns and a possible
perpetrator. The Centers will refer schemes to the CI function field offices for further evaluation
if the amount of refunds claimed exceeds a certain dollar amount. When a refund fraud
investigation is referred for prosecution, there is great success in obtaining a conviction. In
Fiscal Year 2006, the function reported the results of QRP investigations obtained an overall
conviction rate of 96.8 percent and received publicity on 81 percent of its QRP investigations.
However, we noted the majority of the refund schemes are not being referred for potential
criminal prosecution. For example, we previously reported10 that, as of March 2005, almost

10
     For more information, see Appendix V, report 5.
                                                                                               Page 15
                       Actions Have Been Taken to Address Deficiencies
                     in the Questionable Refund Program; However, Many
                       Concerns Remain, With Millions of Dollars at Risk



      recover fraudulent refunds that were issued. Although legislative proposals are the
      responsibility of the Assistant Secretary for Tax Policy, the IRS had previously drafted a
      legislative proposal in June 2002 that would in effect have eliminated the need for the
      IRS to issue a statutory notice of deficiency for certain types of cases. We believe this
      recommendation has the potential to improve tax administration while still protecting
      taxpayer rights. We continue to believe the IRS should take a leading role in pursuing a
      legislative change, while working with the Assistant Secretary for Tax Policy.
Recommendation 5: Consult with the Executive Steering Committee and consider lowering
the tolerances for sending cases to the Examination function.
      Management’s Response: The IRS did not agree or disagree with this
      recommendation, stating that, while the IRS would like to address all cases of potential
      noncompliance, its enforcement resources are limited. Each year, top IRS management
      makes carefully thought-out business decisions about how to deploy these resources.
      Tradeoffs must be made among competing priorities, and criteria will be established each
      filing season based on these business decisions.
      Office of Audit Comment: We agree IRS resources are limited and the IRS is not
      able to address all cases of noncompliance. We recognize it is important to have
      processes and procedures that allow the IRS to use those resources efficiently and
      effectively. In general, examination cases involve one taxpayer filing one or two returns
      on which the refunds have already been issued. Refund fraud, on the other hand,
      sometimes involves one or two taxpayers filing multiple (sometimes hundreds of)
      fraudulent returns. In most cases, the refunds are stopped. Both types of cases require
      adjustments and issuance of notices to the taxpayers. However, due to the greater impact
      on revenue loss, we believe it is appropriate for the IRS to have a lower individual return
      tolerance in cases of refund fraud, to prevent the issuance of tens of thousands of dollars
      in fraudulent refunds. Implementing the legislative change in Recommendation 4 would
      allow the IRS to lower its tolerances, drastically reduce the number of cases that would
      need to be referred to the Examination function, and reduce the number of
      already limited resources needed to process these cases.




                                                                                         Page 23
                             Actions Have Been Taken to Address Deficiencies
                           in the Questionable Refund Program; However, Many
                             Concerns Remain, With Millions of Dollars at Risk



was especially troublesome because the CI function had previously concluded that these were
fraudulent refunds. The Advocate’s sample of 398 “decided” cases (taken from the Taxpayer
Advocate Service’s closed inventory during Fiscal Year 2004 and the first 6 months of Fiscal
Year 2005) identified 66 percent that resulted in taxpayers receiving refunds.24 Included in the
398 cases were 142 returns categorized as involving current year fraud. The Taxpayer Advocate
Service determined that 65 (46 percent) of the 142 returns were not fraudulent and the taxpayers
received full refunds; 43 of the 65 cases were from 1 Center.
The CI function responded to the Advocate’s conclusion regarding the pool of innocent
taxpayers negatively affected by the function’s account freezes as follows:
         [The] Taxpayer Advocate Service’s conclusion was based on an extrapolation from a
         limited sample of [the] Taxpayer Advocate Service’s cases and innocent taxpayers are
         much more likely to contact [the] Taxpayer Advocate Service than those who have filed
         false or fraudulent returns. To extrapolate their conclusions from Taxpayer Advocate
         Service cases to the whole universe of stopped refunds inflates the universe of innocent
         taxpayers affected by CI [function] fraud detection programs.
Our case review (taken from a sample of the approximately 118,000 fraudulent refund returns
identified during Processing Year 2004) determined there were incorrect determinations of fraud,
but they were not as widespread as originally indicated by the Advocate’s Report. We identified
only 8 of 385 returns that were later determined to be not fraudulent. In addition, we obtained a
computer file of 6,831 returns that were originally determined to be fraudulent during Processing
Year 2004 but were subsequently determined to be valid refunds. This represents 5.8 percent of
the returns originally determined to be fraudulent during Processing Year 2004.
We believe several factors contributed to the inaccurate determinations of fraud. First, although
the Centers confirm employment with an employer, the employer may have provided an
incorrect response because the employee may have given the employer an incorrect Social
Security Number or the employer recorded the information incorrectly. In addition, due to the
high volume of workload, one Center did not have time to determine if fraud existed and
permanently froze accounts intending to review them later. However, a fraud determination
never occurred and the accounts remained frozen, giving an impression that the returns were
fraudulent.
We also compared our sample of 385 fraudulent refund returns to the Advocate’s management
information system and identified 50 cases (13 percent) that had an inquiry. This is nearly the
same percentage (14 percent) as that for all inquiries the Taxpayer Advocate Service received
during 2004 (see Figure 3). In 27 (54 percent) of the 50 cases, the Taxpayer Advocate Service

24
  A “decided” case is one for which the Taxpayer Advocate Service, in conjunction with the CI function, could
determine there was either fraud (the taxpayer’s refund was either reversed or reduced) or no fraud (the taxpayer
received a full refund).
                                                                                                           Page 29
                             Actions Have Been Taken to Address Deficiencies
                           in the Questionable Refund Program; However, Many
                             Concerns Remain, With Millions of Dollars at Risk



inquiry related to our sample year; in 24 cases, the inquiry was related to a subsequent year.25
The taxpayers received full refunds in 4 (15 percent) of the 27 cases involving frozen refunds for
the current year’s returns. This percentage is significantly less than the results identified by the
Advocate’s sample. We believe the primary reason for the differing rates is the Advocate’s
sample consisted only of taxpayers who filed a complaint with its office. The CI function
believes these taxpayers are much more likely to contact the Advocate’s office than those who
have filed false or fraudulent returns. The Advocate’s office recognized this and advised us it
did not intend to imply its results were indicative of the entire population of frozen refunds, only
that there were some innocent taxpayers within the CI function’s population of fraudulent
returns.
Our sample also had taxpayer complaints on 24 (16.1 percent) of the 149 cases for which the
subsequent year’s return was filed and frozen. The taxpayers received full refunds in
14 (58.3 percent) of the 24 cases. Although lower, the percentage of taxpayers receiving refunds
is closer to the 79 percent from the Advocate’s sample. We believe the higher refund rate in
subsequent years can be attributed to the CI function’s previous practice of freezing refunds and
not notifying taxpayers or not timely verifying the frozen refunds. If the CI function reinstates
the freezing of subsequent refunds, we believe the number of Taxpayer Advocate Service
inquiries will be reduced because of the new procedures for notifying the taxpayer of the freeze
and establishing time limits to resolve the freeze.

Account resolution is proper; however, it is not timely
Our review of 104 accounts with frozen refunds as of September 30, 2005, and for which the
account balance was $0 as of December 31, 2005, identified the following:
     •   The Centers released 42 of 104 refunds in whole or in part because they determined the
         refunds were not fraudulent. The Centers or the Examination function later determined
         that 62 refunds were fraudulent and made the appropriate adjustments to the accounts to
         reverse the refunds.
     •   In our opinion, the Centers did not timely resolve 42 of the 104 cases.26 Specifically, the
         Centers took an average of 262 days to release the refunds on 22 accounts for which they
         verified the refunds were good and an average of 726 days to make adjustments to
         resolve 20 accounts for which the refunds were verified as fraudulent.



25
   One of the 27 inquiries involved both the sample year and a subsequent year; we counted the inquiry in both
years.
26
   These 42 cases are not necessarily the same 42 cases referred to in the prior bullet. We considered a case
untimely if (1) the refund was determined to be legitimate and the Center took more than 2 months to release the
refund or (2) a refund was deemed to be fraudulent and the Center had not adjusted the fraudulent information from
the account by the end of the calendar year in which the fraud was identified.
                                                                                                         Page 30
                         Actions Have Been Taken to Address Deficiencies
                       in the Questionable Refund Program; However, Many
                         Concerns Remain, With Millions of Dollars at Risk



Recommendation
Recommendation 7: The Chief, CI, should reemphasize the requirement to maintain
documentation to describe how Centers determined fraud. The CI function’s Review and
Program Evaluation office staff should include adherence to this requirement in their periodic
reviews of the Centers.
       Management’s Response: The IRS agreed with this recommendation. The CI
       function has established a task force to consider revising review procedures, including the
       adherence to maintaining documentation and/or notations. The function plans to conduct
       formal reviews in the Centers beginning in the fourth quarter of Fiscal Year 2007.




                                                                                          Page 32
                                     Actions Have Been Taken to Address Deficiencies
                                   in the Questionable Refund Program; However, Many
                                     Concerns Remain, With Millions of Dollars at Risk



                                                                                           Appendix I

                 Detailed Objective, Scope, and Methodology

     The overall objective of this review was to determine the effectiveness of the IRS’ procedures
     for detecting fraudulent and potentially fraudulent refund income tax returns. To accomplish this
     objective, we planned to evaluate the controls over and procedures for properly managing the
     inventory of fraudulent refund returns. Specifically, we:
I.              Evaluated the controls over and procedures for ensuring the Fraud Detection Centers (the
                Centers) correctly manage inventory, including the proper freezing1 of fraudulent refund
                returns and the timely and proper release of freezes no longer needed.
                A. Evaluated new procedures and controls developed by the Office of Refund Crimes
                   and the Executive Steering Committee as a result of the National Taxpayer
                   Advocate’s 2005 Annual Report to Congress. These procedures included, but were
                   not limited to:
                    1.   Freezing subsequent years’ returns.
                    2.   Notifying taxpayers that their refunds are delayed.
                    3.   Releasing existing freezes.
                    4.   Adjusting taxpayer accounts.
                B. Through assessment of the electronic data sources used in this audit, concluded the
                   data were of undetermined reliability. However, answering the audit’s objective
                   would not be feasible if the data were not used, and it was our opinion that using the
                   data would not weaken the analysis or lead to an incorrect or unintentional message.
                   Additional steps to determine data reliability prior to testing were not feasible. For
                   samples selected, the electronic data were validated to source documents or to the
                   Master File.
                C. Selected a statistically valid sample of 385 fraudulent refund returns from the
                   universe of about 118,000 fraudulent returns identified by the 10 Centers during
                   Processing Year 2004 and placed in the Scheme Tracking and Referral System. The
                   sample had a confidence level of 90 percent, a precision level of +3 percent, and an
                   estimated error rate of 15 percent.




     1
         Appendix VI includes a glossary of terms used in this report.
                                                                                                  Page 33
                              Actions Have Been Taken to Address Deficiencies
                            in the Questionable Refund Program; However, Many
                              Concerns Remain, With Millions of Dollars at Risk



             1. Analyzed Master File account transcripts to determine if the CI function had input
                a freeze on the account, the type of freeze, when it was input, and when it was
                removed.2 We also looked for indications that the taxpayer was involved in a
                prior year fraud and that adjustments were made and/or cases were referred to the
                Examination function or Collection function, as appropriate.
             2. Determined if the fraud determination was properly supported (e.g., wage
                verification was conducted) by reviewing documentation provided by the Centers
                and discussing with applicable Center personnel.3
             3. Analyzed the Master File account transcripts for each sampled case and
                determined if the taxpayer filed tax returns during Processing Years 2005 and/or
                2006. We made the following assessments by reviewing the account transcripts,
                analyzing documentation provided by the Centers, and discussing with applicable
                Center personnel:4
                  a. Was there a freeze on the account?
                  b. Did the Center timely review the account?
                  c. What is the status of the refund?
             4. Determined if schemes were referred to the CI function field offices for potential
                prosecution.
                  a. Obtained from the Scheme Tracking and Referral System a computer file of
                     about 118,000 returns determined to be fraudulent by the function during
                     Processing Year 2004.
                  b. Compared the file to the Criminal Investigation Management Information
                     System as of March 30, 2006, and determined the status of the schemes in the
                     Scheme Tracking and Referral System.
                  c. Compared each of the schemes represented in our sample to the Criminal
                     Investigation Management Information System data and reviewed
                     documentation provided by the Centers.




2
  The error attributes for this test included the following characteristics: (1) the taxpayer’s account was frozen and
the return was not verified as fraudulent or (2) the taxpayer’s account was not frozen and the return was determined
to be fraudulent. If the return was not frozen or timely frozen, we determined the amount of any subsequent
refund(s). We were unable to project the total amount because that would have required a larger variable sample.
3
  The error attribute for this test was that the Centers incorrectly determined the return was fraudulent (e.g., account
frozen and no wage verification present).
4
  The error attributes for this test included the following characteristics: (1) the subsequent year return was frozen
and the return was not timely verified as correct or (2) the subsequent year return was not frozen and there was no
indication of a fraud determination.
                                                                                                               Page 34
              Actions Have Been Taken to Address Deficiencies
            in the Questionable Refund Program; However, Many
              Concerns Remain, With Millions of Dollars at Risk



   the universe. Further, we selected all 14 accounts with a credit balance exceeding
   $500,000, for a total of 104 cases.
3. Through interviews with Center personnel, case reviews, and review of Master
   File account transcripts, determined:
   a.   How and why the refund was released.
   b.   If the release was proper and appropriately supported.
   c.   If the Center timely reviewed the account.
   d.   If the freeze was the result of a prior year or current year fraud.




                                                                              Page 36
                       Actions Have Been Taken to Address Deficiencies
                     in the Questionable Refund Program; However, Many
                       Concerns Remain, With Millions of Dollars at Risk



                                                                             Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business Programs)
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
John R. Wright, Director
Diana M. Tengesdal, Audit Manager
Michael J. Hillenbrand, Lead Auditor
Joseph F. Cooney, Senior Auditor
Jeff K. Jones, Senior Auditor
Janice A. Murphy, Senior Auditor
Ahmed Tobaa, Senior Auditor
Robert Carpenter, Information Technology Specialist




                                                                                    Page 37
                       Actions Have Been Taken to Address Deficiencies
                     in the Questionable Refund Program; However, Many
                       Concerns Remain, With Millions of Dollars at Risk



                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
Division Counsel/Associate Chief Counsel (Criminal Tax) CC:CT
Director, Office of Governmental Liaison and Disclosure CL:GLD
Director, Campus Compliance Services SE:S:CCS
Director, Compliance SE:W:CP
Director, Operations Policy and Support, Criminal Investigation SE:CI:OPS
Director, Refund Crimes, Criminal Investigation SE:CI:RC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Controls OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W
       Chief, Criminal Investigation SE:CI:S:PS




                                                                                  Page 38
                             Actions Have Been Taken to Address Deficiencies
                           in the Questionable Refund Program; However, Many
                             Concerns Remain, With Millions of Dollars at Risk



                                                                                                 Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
Revenue Protection – Potential; $71.7 million in fraudulent refunds would have been prevented
from issuance due to the subsequent year freeze (see page 9).

Methodology Used to Measure the Reported Benefit:
We obtained an extract from the Scheme Tracking and Referral System1 containing about
118,000 fraudulent refund returns identified by the CI function Fraud Detection Centers during
Processing Year 2004. We stratified the population of fraudulent refund returns by refund
amount into five categories. We did not select fraudulent returns with a refund amount less than
$0 (i.e., balance-due returns) because we did not want our sample projections to be distorted.
Our estimates are based on review of a statistically valid sample of 385 fraudulent refund returns
handled by the CI function in Processing Year 2004. The statistical samples were selected using
attribute and variable sampling methods with a 95 percent confidence level and precision of
+24 percent (returns) and +27 percent (dollars).2
We analyzed account information for the 385 sample cases and identified 159 taxpayers who
also filed returns during Processing Year 2005; returns for 149 of the 159 taxpayers were frozen,
and 63 (42.3 percent) were determined to be fraudulent. Based on these results, we project that
20,078 returns with refunds totaling $71.7 million would have been determined to be fraudulent
during Processing Year 2005.




1
 Appendix VI includes a glossary of terms used in this report.
2
 Because we did not have information for the universe of fraudulent returns identified during Processing
Years 2005 and 2006, we could project our results only onto the universe of returns identified as fraudulent during
Processing Year 2004.
                                                                                                           Page 39
                         Actions Have Been Taken to Address Deficiencies
                       in the Questionable Refund Program; However, Many
                         Concerns Remain, With Millions of Dollars at Risk



Type and Value of Outcome Measure:
Increased Revenue – Potential; $54 million in fraudulent refunds could have been recovered if
these cases had been referred to the Examination function for an adjustment (see page 15).

Methodology Used to Measure the Reported Benefit:
Using the sample described above, we concluded the CI function issued fraudulent refunds to
71 taxpayers and did not take subsequent action to recover the money (see Figure 7 in the
report).
Based on these results, we project the IRS could have taken action to recover refunds totaling
$81.5 million for 22,556 returns. Our projection is based upon a statistically valid sample with a
95 percent confidence level and a precision of +27 percent (dollars) and +22 percent (returns).
As reported in the following outcome measure, we project the IRS could have collected
$27.5 million of the $81.5 million through refund offsets, leaving a net amount of $54 million.

Type and Value of Outcome Measure:
Increased Revenue – Potential; $27.5 million in fraudulent refunds could have been recovered
through the use of refund offsets (see page 15).

Methodology Used to Measure the Reported Benefit:
Using the sample information described above, we reviewed 385 fraudulent refund returns and
concluded the IRS issued 104 fraudulent refunds. We analyzed the 104 cases in our sample and
identified 62 taxpayers who filed either Tax Year 2004 and/or 2005 tax returns and had refunds
of $285,477 frozen by the CI freeze. As of the date of our review, $154,902 had been refunded
to taxpayers who still owed $289,096 on 60 accounts previously determined to be fraudulent.
Had the IRS taken action to adjust the accounts of these taxpayers in prior years, it could have
collected an additional $97,601 through refund offsets from these 60 taxpayers.
Based on these results, we project the IRS could have collected an additional $27.5 million from
11,013 taxpayer accounts. Our projection is based on a statistically valid sample with a
95 percent confidence level and a precision of +39 percent (dollars) and +33 percent (returns).




                                                                                          Page 40
                         Actions Have Been Taken to Address Deficiencies
                       in the Questionable Refund Program; However, Many
                         Concerns Remain, With Millions of Dollars at Risk



                                                                                 Appendix VI

                                Glossary of Terms

Accounts Management Organization – This is the organization within the Wage and
Investment Division responsible for taxpayer relations by answering tax law/account inquiries
and adjusting tax accounts. In addition, it is responsible for providing taxpayers with
information on the status of their returns/refunds and for resolving the majority of issues and
questions to settle their accounts.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Criminal Investigation Freeze/Freezing – When a Fraud Detection Center determines that a
refund is potentially fraudulent, it places a computer control on the taxpayer’s account. This
control freezes the account and prevents a future refund from being issued.
Criminal Investigation Management Information System – A database that tracks the status
and progress of criminal investigations and the time expended by special agents. It is also used
as a management tool that provides the basis for decisions of both local and national scope.
Data Mining – The process of automatically searching large volumes of data for patterns.
Electronic Fraud Detection System – The primary source for the identification of leads on
fraudulently filed tax returns; however, leads are also received from sources internal to and
external from the IRS.
Filing Season – The period from January through mid-April when most individual income tax
returns are filed.
Master File – The IRS database that stores various types of taxpayer account information. The
database includes individual, business, and employee plans and exempt organizations data.
Primary Investigation – The development of an investigation on individuals or entities when it
appears there is prosecution potential.
Processing Year – The year in which taxpayers file their returns with the IRS. For example,
most Tax Year 2004 returns were filed in Processing Year 2005.
Questionable Refund Program – A nationwide program established to detect and stop
fraudulent claims for refunds on income tax returns.



                                                                                          Page 42
                         Actions Have Been Taken to Address Deficiencies
                       in the Questionable Refund Program; However, Many
                         Concerns Remain, With Millions of Dollars at Risk



Refund Offset – A computer program that will automatically apply a refund due a taxpayer to
another account on which the taxpayer owes money to the IRS.
Review and Program Evaluation Report – A report prepared by CI function staff located in
the Headquarters office containing the results of periodic operational reviews of CI function field
offices.
Scheme – A scheme could include only one return but generally includes numerous returns. In
addition, many small fraudulent refunds that do not have common characteristics may be placed
in a “dump” scheme.
Scheme Tracking and Referral System – The system of records maintained at each Fraud
Detection Center for QRP and Return Preparer Program schemes. It was designed to store
information, for multiple processing years, that is used for tracking and historical purposes.
Subject Criminal Investigation – An investigation developed when an individual or entity is
alleged to be in noncompliance with tax laws and there is prosecution potential. The objective of
a Subject Criminal Investigation is to gather evidence to prove or disprove the existence of a
violation of the laws enforced by the IRS.
Taxpayer Advocate Management Information System – A database of the Taxpayer
Advocate Service that is exclusively dedicated to the recordation, control, and processing of
Taxpayer Advocate Service taxpayer cases and to the capturing and analysis of core tax issues,
laws, policies, and internal IRS functional processes that are the sources of significant taxpayer
hardship and other critical problems.
Taxpayer Advocate Service – An independent organization within the IRS that helps taxpayers
resolve problems with the IRS and recommends changes to prevent problems.
Unpostable Transaction – Those transactions that cannot be posted to the Master File because
of a specific freeze code (e.g., CI freeze). A transaction that fails to post to an account is
returned to the Submission Processing site and is referred to the appropriate area for corrective
action (e.g., cases with a CI freeze will go to the Fraud Detection Centers for review).




                                                                                            Page 43
         Actions Have Been Taken to Address Deficiencies
       in the Questionable Refund Program; However, Many
         Concerns Remain, With Millions of Dollars at Risk



                                                  Appendix VII

Management’s Response to the Draft Report




                                                             Page 44
  Actions Have Been Taken to Address Deficiencies
in the Questionable Refund Program; However, Many
  Concerns Remain, With Millions of Dollars at Risk




                                                      Page 45
  Actions Have Been Taken to Address Deficiencies
in the Questionable Refund Program; However, Many
  Concerns Remain, With Millions of Dollars at Risk




                                                      Page 46
  Actions Have Been Taken to Address Deficiencies
in the Questionable Refund Program; However, Many
  Concerns Remain, With Millions of Dollars at Risk




                                                      Page 48
